No. 19-168

 

 

IN THE

Supreme Court of the Anited States

REMINGTON ARMS Co., LLC, et al.,
Petitioners,
Vv.
DONNA L. SOTO, ADMINISTRATRIX OF THE
ESTATE OF VICTORIA L. SOTO, e¢ al.,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Connecticut

BRIEF OF TWENTY-TWO MEMBERS
OF THE UNITED STATES HOUSE OF
REPRESENTATIVES AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,020 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 4, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
